      Department of Homeland Security




          Costs Claimed by Snoqualmie Pass, WA, 

      Fire & Rescue Under Fire Station Construction 

           Grant Number EMW-2009-FC-02883R 





            American Recovery and Reinvestment Act of 2009



OIG-13-02                                                    October 2012

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                              Washington, DC 20528 / ww,..... oig.dhs.gov


                                            OCT 18 2012

MEMORANDUM FOR:               Eli zabeth M. Harman
                              Assistant Administrator
                              Grant Programs Directorate
                              Federa l Emergency Management Agency

FROM:                         Anne l. Richards       ~,/t~
                              Assistant Inspector Genera l for Audits

SUBJECT:                      Costs Claimed by Snoqualmie Pass, WA, Fire & Rescue
                              Under Fire Station Construction Grant Number EMW-2009-
                              FC-02883R

Attached for your action is our final letter report, Costs Claimed by Snoqualmie Pass, WA,
Fire & Rescue, Under Fire Station Construction Grant Number EMW-2009-FC-02883R.
Since the report contains no recommendations to Federal Emergency Management
Agency officials, we did not solicit formal comments.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to congressional committees with overSight and appropriation
responsibility over the Department of Homeland Security. We will post the report on
our website for public dissemination.

Major contributors to this report are Roger LaRouche, Director of Recovery Act Audits;
Matthew Mongin, Auditor; and Jeanne Genao, Report Referencer.

Please call me with any question, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                            OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Background
   The American Recovery and Reinvestment Act of 2009 (Recovery Act), as amended,
   appropriated $210 million to the Federal Emergency Management Agency (FEMA) for
   competitive grants for modifying, upgrading, or constructing non-Federal fire stations.
   On September 25, 2009, FEMA awarded a grant of $4,007,374 to Snoqualmie Pass Fire
   & Rescue to construct a new fire station.

   The grant specified a period of performance from September 25, 2009, to September
   24, 2012. As of April 15, 2012, Snoqualmie Pass Fire & Rescue had completed the
   construction of the new fire station (see figure 1) and had received reimbursements of
   $4,007,374 from FEMA for project design, engineering, construction, and management.

   Figure 1. Snoqualmie Pass, WA, Fire & Rescue Fire Station #291




   Source: KIROTV Seattle, Washington, website.

   Under the terms of the grant, Snoqualmie Pass Fire & Rescue agreed to use the grant
   funds according to FEMA’s American Reinvestment and Recovery Act, Assistance to
   Firefighters, Fire Station Construction Grants, Guidance and Application Kit (Guidance
   and Application Kit), and to comply with Office of Management and Budget (OMB)
   Circular A-87, Revised, Cost Principles for State, Local and Indian Tribal Governments,



www.oig.dhs.gov                                 2                                       OIG-13-02
                            OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   and the Uniform Administrative Requirements for Grants and Cooperative Agreements
   to State and Local Governments in the Code of Federal Regulations (44 CFR 13). The
   grant also includes requirements for complying with OMB Circular A-133, Revised,
   Audits of States, Local Governments, and Non-Profit Organizations, and Recovery Act
   provisions for submitting quarterly recipient reports to the Department of Homeland
   Security (DHS) on the use of Recovery Act funds; paying prevailing wages as
   determined by the Secretary of Labor; and using American-made iron, steel, and
   manufactured goods.

   Results of Audit
   Snoqualmie Pass Fire & Rescue spent $5,862,192 to complete construction of the new
   fire station. Of that amount, we determined that Snoqualmie Pass Fire & Rescue
   incurred sufficient allowable, allocable, and reasonable costs to earn the $4,007,374
   that it claimed for reimbursement. During our inspection of the new fire station, we
   observed a large multipurpose room that could be used for training firefighters or for
   various community events and ancillary offices. Although FEMA specifically denies the
   use of grant funds for nonoperational space, FEMA does permit grantees to construct
   such facilities using local funds, as did Snoqualmie Pass Fire & Rescue. We concluded
   that Snoqualmie Pass Fire & Rescue complied with Recovery Act requirements for
   submitting quarterly Recovery Act reports to DHS and for ensuring that contractors
   were paid prevailing wages and used American-made iron, steel, and manufactured
   goods in the construction of the new fire station.

   Nonoperational Space

   The Guidance and Application Kit states that spaces for activities that are not directly
   related to daily operation of the fire department are ineligible for grant reimbursement.
   Such spaces include community meeting space, ballrooms, and support spaces for
   administrative or other governmental functions such as police or emergency
   management facilities. The Guidance and Application Kit notes that a department’s
   ability to use nonoperational space for eligible activities, such as training, does not
   mean that the space is eligible for grant funding. However, the Guidance and
   Application Kit states that there is no penalty for including nonoperational space in a
   fire station construction project, because it contributes to the purpose of the Recovery
   Act (creating and/or sustaining jobs).

   Our inspection of the new fire station disclosed a large, 32’ × 50’ multipurpose room
   with an elevated platform at one end. The Fire Chief stated that the room was
   designed for firefighter training and other uses, such as emergency operations or
   community meetings. He explained that Snoqualmie Pass does not have a community
   building and there are times when the residents need a centrally located facility to


www.oig.dhs.gov                                 3                                       OIG-13-02
                            OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   meet. The Fire Chief said that the space could also serve as an emergency shelter. We
   also observed four other office-sized rooms that were designated for nonoperational
   purposes, including storage for local search and rescue teams, two rooms for a future
   daytime medical clinic, and an office for a State Patrol Officer or Sheriff’s Deputy. The
   Fire Chief explained that these rooms could offer important services that previously
   had not been available to the community, particularly for its many recreational visitors.

   We measured the nonoperational space as 2,071 square feet, and using the FEMA
   guidance, we calculated its construction cost as $716,566. Notwithstanding the cost of
   the nonoperational space, Snoqualmie Pass Fire & Rescue spent enough on eligible
   items to earn the $4,007,374 grant.

   Compliance With Requirements for Reporting, Buying American, and Paying
   Prevailing Wage

   The Recovery Act requires grant recipients to submit quarterly reports on project
   activities to DHS; to ensure that projects are accomplished with American-made iron,
   steel, and manufactured goods; and to ensure that laborers and mechanics are paid, at
   a minimum, prevailing wages as determined by the Secretary of Labor under 40 United
   States Code Chapter 31, Subchapter IV. We verified that Snoqualmie Pass Fire &
   Rescue submitted the required quarterly reports. We determined that “Buy American”
   and prevailing wage provisions were followed during the construction of the fire
   station by including Recovery Act provisions in the public solicitation and general
   construction contracts and by the Project Manager’s onsite oversight. Additionally, the
   Project Manager reviewed pay vouchers to confirm payment of prevailing wage rates.




www.oig.dhs.gov                                 4                                      OIG-13-02
                            OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix A
   Purpose, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs claimed by Snoqualmie Pass
   Fire & Rescue were allowable, allocable, and reasonable according to the grant and
   applicable Federal regulations. To accomplish our audit objective, we examined costs
   of $5,862,192 incurred by Snoqualmie Pass Fire & Rescue from June 2011 to April 2012.

   In conducting our audit, we did the following:

   •	 Obtained and reviewed the Recovery Act, the grant application and award, the
      grant Guidance and Application Kit, and Federal cost principles and grant
      administrative requirements;

   •	 Interviewed Snoqualmie Pass Fire & Rescue personnel to gain an understanding of
      their accounting system and the applicable internal controls;

   •	 Reviewed the fiscal year 2010 Single Audit report and interviewed the responsible
      auditor to identify issues and other conditions that could affect our examination;

   •	 Reviewed the recipient’s internal controls specifically related to our objectives;

   •	 Examined vendor invoices and other evidence supporting the costs incurred and
      claimed for FEMA reimbursement;

   •	 Reviewed contract files and supporting documentation for primary contractors and
      professional service providers for the fire station construction project;

   •	 Reviewed accounting transactions related to purchases, payments, and receipt of
      FEMA reimbursements;

   •	 Used the grant provisions and applicable Federal requirements to determine
      whether amounts claimed were eligible for reimbursement;

   •	 Performed fraud detection procedures;


www.oig.dhs.gov                                 5                                  	       OIG-13-02
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



   •	 Confirmed compliance with Recovery Act provisions for buying American and
      paying prevailing wages to laborers and mechanics; and

   •	 Inspected the new fire station and surrounding property.

   We conducted this performance review between April and June 2012, pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                                6                                	    OIG-13-02
                              OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Recovery Act Coordinator

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate,
     Federal Emergency Management Agency
   Audit Liaison Official

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  7                         OIG-13-02
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
